           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

        SINGLE AUDIT OF THE
        GOVERNMENT OF THE
       DISTRICT OF COLUMBIA
     FOR THE FISCAL YEAR ENDED
         SEPTEMBER 30, 2009

     November 2010   A-77-11-00003




 MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                       SOCIAL SECURITY
MEMORANDUM

Date:      November 24, 2010                                                 Refer To:

To:        Rebecca Tothero
           Acting Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the Government of the District of
           Columbia for the Fiscal Year Ended September 30, 2009 (A-77-11-00003)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the Government of the District of Columbia for the Fiscal Year ended
           September 30, 2009. Our objective was to report internal control weaknesses,
           noncompliance issues, and unallowable costs identified in the single audit to SSA for
           resolution action.

           BDO Seidmen, LLP performed the audit. The desk review conducted by the
           Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the
           internal control and compliance work performed by BDO Seidmen, LLP and the reviews
           performed by HHS. We conducted our review in accordance with the Council of the
           Inspectors General on Integrity and Efficiency’s Quality Standards for Inspections.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The District of Columbia’s Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The
           Department of Disability Services (Department) is the DDS’ parent agency.
Page 2 – Rebecca Tothero


The single audit reported that the Department:

•   Did not maintain documentation that vendors were verified through the Excluded
    Parties List System (EPLS) for possible debarment or suspension. The corrective
    action plan indicates the Department will maintain documentation of the EPLS
    verifications (Attachment A, Page 1).

•   Understated overtime hours reported on the Time Report of Personnel Services
    (Form SSA-4514). The Department agreed with the finding, but did not specify
    planned corrective actions. (Attachment A, Page 2).

We recommend that SSA:

1. Ensure the Department maintains documentation supporting EPLS verifications.

2. Verify the Department establishes procedures to ensure the accuracy of the Form
   SSA-4514.

The single audit also disclosed that the District of Columbia failed to comply with the
Quick Payment Act (Attachment B, Page 1). This finding may impact DDS operations,
although it was not specifically identified to SSA. I am bringing this matter to your
attention as it represents a potentially serious service delivery and financial control
problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                                 Patrick P. O’Carroll, Jr.

Attachments
                                                                                                      Attachment A
                                                                                                        Page 1 of 2
District Agency - Department of Disability Services (DDS)

 No.          Program                                                 Findings/Noncompliance        Questioned Costs
 2009-26      Social Security Administration                          Procurement, Suspension,      Not Determinable
                                                                      and Debarment
              Social Security - Disability Insurance
              CFDA Number: 96.001
              Grant Award Number: 1-536001131-A4
              Grant Award Period: 10/1/08-9/30/09

Criteria or Specific Requirement - OMS Circulars A-133 and A-102 require that recipients of federal awards have
adequate procedures and controls in place to ensure that the procurement transactions are properly documented in
the entity's files, provide full and open competition supported by a cost or price analysis, provide a vendor debarment
or suspension certification, provide for retention of files, and that supporting documentation collaborate compliance
with these requirements.

Condition - We noted that there was no evidence of DDS verifying whether the 16 vendors sampled had been
debarred or suspended from providing services where federal funds were utilized.

Context - This is a condition identified per review of DDS' compliance with specified requirements. We reviewed 22
procurement files totaling $964,882.

Effect -Inefficient control systems related to procurement files can lead to noncompliance with laws and regulations.
DDS could have inadvertently contracted with a vendor that is suspended or debarred from doing business with the
Federal government.

Cause - DDS does not have adequate procurement processes and controls in place to ensure compliance with the
federal procurement regulations.

Recommendation - We recommend that DDS improve internal controls to ensure adherence to federal regulations
related to procurement of goods and services. In addition, we recommend that DDS review its current records
retention policy to ensure that complete documentation is maintained for all procurement transactions.

Views of Responsible Officials and Planned Corrective Actions - DDS confirmed that none of the sources awarded
with contracts or purchase orders were debarred, suspended, or ineligible. Although the on-line file did not include
physical evidence that the excluded parties list at https://www.epls.gov/epls/search was checked for the small
purchases (less than $100,000), EPLS verification was actually conducted at the time of the award on a majority of
the procurements. DDS, on advisement from the reviewers, has agreed that documentation to the file will include a
"print screen" pasted to a word document of the actual EPLS findings, even for simplified acquisitions (small
purchases), which require minimum documentation, consistent with regulatory guidance at Federal Acquisition
Regulation (FAR) Part 13, section 13.106-3 and FAR 9.1 05-2(a).
                                                                                                       Attachment A
                                                                                                         Page 2 of 2
District Agency - Department of Disability Services (DDS)

 No.          Program                                                Findings/Noncompliance           Questioned Costs
 2009-27      Social Security Administration                         Reporting                        Not Determinable

              Social Security - Disability Insurance
              CFDA Number: 96.001
              Grant Award Number: 1-536001131-A4
              Grant Award Period: 10/1/08-9/30/09

Criteria or Specific Requirement - The form SSA4514, Time Report of Personnel Services (OMS No. 0960-0421), is
a quarterly report used to identify the number of hours worked by staffing category and employment status (i.e., full-
time, part-time, temporary). This report should reflect all hours worked by personnel engaged in the program during
the reporting period.

Condition - We reviewed form SSA-4514 for the quarter ended March 31, 2009 and noted that total employee
overtime hours reported were 17 hours lower than the supporting documentation.

Context - This is a condition identified per review of DDS' compliance with specified requirements.

Effect - DDS was not in compliance with the reporting requirements of the grant program.

Cause - It appears that accounting and review procedures over information recording were not functioning as
intended.

Recommendation - We recommend that DDS enhance the review and approval process to ensure that the reports
submitted to the Federal agency reflect accurate information.

Views of Responsible Officials and Planned Corrective Actions - DDS concurs with the finding that the overtime
hours included on SSA4514 report were understated by 17 hours.

The form SSA-4514 is a quarterly programmatic report submitted to the Social Security Administration and is used to
determine the number of FTE(s) based on the number of the regular and overtime hours worked for that quarter.
This report does not impact the expenditures reported to Social Security Administration for the Disability Insurance
Grant. The form SSA-4513 quarterly financial status report which reports the expenditures reflected the correct
amount of overtime hours and the related expenditures. If the 17 hours were included in the SSA-4514 report, the
FTE(s) would have been 33.79 as opposed to 33.82.
                                                                                                  Attachment B
                                                                                                    Page 1 of 1
2009-05       Quick Payment Act

The Quick Payment Act of 1984 states, in part, the following:

          In accordance with rules and regulations issued by the Mayor of the District of Columbia ("Mayor"), each
          agency of the District of Columbia government ("District"), under the direct control of the Mayor, which
          acquires property or services from a business concern but which does not make payment for each complete
          delivered item of property or service by the required payment date shall pay an interest penalty to the
          business concern in accordance with this section on the amount of the payment which is due.

          Specifically, the due dates required are as follows:
              1) The date on which payment is due under the terms of the contract for the provision of the property
                   or service;
             2) 30 calendar days after receipt of a proper invoice for the amount of payment due;
             3) In the case of meat or a meat food product, a date not exceeding seven calendar days after the
                   date of delivery of the meat or meatfood product; and
             4) In the case of agricultural commodITies, a date not exceeding seven calendar days after the date of
                   delivery of the commodities.

Furthermore, the act addresses various requirements for payment of interest penalties and includes provisions
regarding required reports as follows:

              1) Each District agency shall file with the Mayor a detailed report on any interest penalty payments
                 made.
              2) The report shall include the numbers, amounts, and frequency of interest penalty payments, and
                 the reasons the payments were not avoided by prompt payment, and shall be delivered to the
                 Mayor within 60 days after the conclusion of each fiscal year.
              3) The Mayor shall submit to the Council within 120 days after the conclusion of each fiscal year a
                 report on District agency compliance with the requirements.

For the year ended September 30, 2009, we noted 248 instances where the District failed to comply with the Quick
Payment Act.

Management's Response:

Prompt payment is dependent upon quick approval of valid vendors' invoices by an agency's program office.
Certification of delivery of services or goods must be communicated to the agency's finance division before vendor
payments can be made. Management will increase efforts to assure compliance with the Quick Payment Act.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
